EVALUATION OF THE SMALL BUSINESS ADMINISTRATION'S 

         INFORMATION SECURITY PROGRAM 



                   Report Number: 07-74 

               Date Issued: February 22, 2007 

           U.S. Small Buslnws Admlnlstratlon 

                                                  Memorandum
           OW- of Inspdor General 



           Christine Liu                                                  February 22,2007
           Chief Information Officer
                 [Exemption 6]


           Assistant Inspector General for Auditing
subject:   Advisory Memorandum Report on SBA's Information Security Program

           This report presents the results of our fiscal year (FY) 2006 evaluation of the
           Small Business Administration's (SBA) information security program. The
           Federal Information Security Management Act (FISMA) requires the Office of
           Inspector General (OIG)to annually assess SBA's progress in correcting
           weaknesses identified in last year's FISMA review and to provide input on SBA's
           annual FISMA report in accordance with specific reporting instructions issued by
           the Ofice of Management and Budget (OMB). Reporting instructions for FY
           2006 were provided in OMB Memorandum 06-20, FY 2006 Reporting
           Instructions for f he Federal Information Securit), Managem en! Acc and Agency
            Privacy Management,

            Our input into SBA's annual FISMA report, which was submitted to O M 8 in
            October 2006, is attached in Appendix 111. This input was based on tests of 11 of
            SBA's 19 major systems. Three of these systems were reviewed by different
            lndependent Public Accountants using Statements of Auditing Standards (SAS)
            70, Type I1 auditing procedures. Eight of these systems were reviewed by our
            Independent Public Accountants, KPMG, in accordance with the Federal
            Information Systems Control. Audit Manual. We utilized reviews of these 11
             systems along with our own reviews of SBA security documentation to come to
             our conclusions of SBA's information security p r o m .

            We also anempted, but were unable, to review SBA's 82 non-major systems for
            compliance with the certification and accreditation (C&A) provisions of FISMA.
SBA had not classified the sensitivity of information in 80 of its 82 non-major
systems to dekmine wrhich systems should be certified and accredited. A more
detailed discussion of our scope and methodology is in Appendix I.

SBA reviewed a draft of this report and concurred with the findings and
recommendations. SBA's full response is included in Appendix I of this report.

RESULTS
Duriag FY 2006 SBA made a concerted effort to correct weaknesses identified in
previous FXSMA reviews, Consequently, only four recomrn endations remain
unresolved. Of these, two involve corrective actions targeted for June 30,2006,
which are past due. SBA has not fully incorporated continuous m o n i t o m of - - .
major applications and general support systems into its C&A requirements nor has
it required that configura:ion management plans be included in C&A packages for
all of its systems. Actions on the two remaining recommei~dationsare to be.
completed in calendar year 2007. Our ssessment of SBA's progress in correcting
weaknesses previously identified is summari~edin Appendix IV.

SBA has also made improvements in its Computm S e c u r i ~Pr~laam.
                                                              ~         In,FY 2005,
SBA fully certified and accredited 9 of the 1 1 systems we evaluated. 1bt twn:
rernainiig systems had interim C&As. SBA also met FISMA requirements for
managing an agency-wide plan of action and miIestone process to track its
progress in addressing IT security weaknesses, establishing agency-wide security
configuration policy and guidelines, reporting security incidents, and providing
security awareness training.
 Despite this progress, SBA still needs to improve its program in two areas-
 cl asslfying the sensitivity of its non-maj or systems and ensuring that contingency
 plans for all contractor-operated systems are tested. FIPS Publication 199,
 Sfaptdardsfor Security Categorization of Federal information and Information
 Systems, requires that a11 information and information systems be categorized by
 an appropriate risk level to ensure an appropriate level of information security.
 However, SBA had not classified the sensitivity of information in 80 of its 82 non-
 major systems to determine which systems should be certified and accredited.
 Consequently, we were unable to assess the adequacy of security protection for
 these systems.
 SBA also did not ensure that three of seven disaster recovery plans for its major
 contractor-operated systems were tested. NIST SP 800-34, Cuntingenq Planning
 Guide for IPtformation Technology Systerns, and OM3 Memorandum 06-2 0
 require agencies t o develop system disaster recovery plans and restoration
 procedures, which would recover SBA's systems based upon the business impact
t o t h e agency. However, SBA did not have documentation to show that disaster
recovery plans had been tested in FY 2006 for the:

       Business Development Management System

       Contract 7 (a)/503/504 Loan Servicing System; and

       LoanLender Monitoring System.

Because these plans have not been tested, SBA has no assurance that they could be
restored in the event of emergencies according to time frames specified in SBA's
business impact analyses. SBA needs to either modify existing contract language
or related service-level agreements to ensure that all of its major contractor-
operated systems are annually tested for disaster recovery and that test results arp
documented.

RECOMMENDATIONS
We recommend that the Chief Information Officer:

    I. 	Classify the FlP S 199 risk level for all non-maj or information systems
        identified in SBA's systems inventory -and document these classifications in
       its inventory accordingly.

    . 	 Certify and accredit all low-, moderate-, and high-impact non-major
       systems in accordance with FlSMA requirements.

    3. 	 Ensure that current contracts or service-level agreements are modified to
         require that disaster recovery plans for all SBA contractor-operated systems
         are annually tested and the test results documented,


 AGENCY COMMENTS
 The Agency provided written comments on a draft of this report concurring with
 all findings and recommendations in the draft report. SBA's comments are
 summarized in the Results in Brief section, and the full text of the comments can
 be found in Appendix Z to this report.
APPENDIX I. SCOPE AND METHODOLOGY

We performed an independent evaluation of SBA's information security program
for the period, August 16,2003, to August 15, 2006 to reach conclusions about the
adequacy of the FISMA reporting areas. Our evaluation was performed in
accordance with instructions provided in the Ofice of Management and Budget
Memorandum 06-20, FY 2006 Reporting Instructioxsfor the Federal Infornzati~jz
Security Managemsr2t Act and Agency Privacy Management.

Our evaluation included tests of 11 of SBA's 19 major systems. Three of these
systems were reviewed by different Independent Public Accountants using
Statements of Auditing Standards (SAS) 70, Type I1 auditing procedures. Eight of
these systems were reviewed by our Independent Public Accountants, JSPMG: in
accordance with the Federal Information Systems Control Audit Manual. In
addition, for each major system tested we reviewed program documentation to
determine whether each system maintained a valid certification and accreditation
and had a tested disaster contingency plan for the fiscal year. Our findings were
confirmed in discussions with SBA officials.

We alsd attempted, but were unable, to review SBA's 82 non-major systems for
compliance with certification and accreditation provisions. SBA did not have
adequate documentation to make valid conclusions. We also considered prior
audits related to SBA's information systems computer security program issued by
our office in fiscal year 2006.

 Our evaluation was performed at SBA' s headquarters office in Washirigton, D.L.
 from May 2006 through October 2006.
    APPENDIX 11. MANAGEMENT COMMENTS 





Date:   January 25,2007

To: 	 Debra S. Ritt
         Assistant Inspector General for Auditing

                              &x
From: ChristineH.Liu [Exemption 6]
      Chief Information Officer 

      Chief Privacy Officer 


Subjwt: 	OCIO's Response to Draft Advisory Memorandum Report on SBA's Information
         Security Program



         Please find attached OCIO's response to the x&ommendations addressed in tfie above

         report. If you require additional in.fomation, please contact me at (202) 205-6708.
                                                                                       [Exemption 2]




         Attachment



         cc: 	 Jovita Carranza 

              Deputy Admiaistrator 

Response Ofice of Inspector General's Audit Report on the Evaluation
of the Small Business Adininisfration's Infomution Security Program
(Project No. 6028):


      1.	 Classify the FTPs 199 risk level for all non-major information systems
          identified in SBA's systems inventory and document these cbssfications in its
         inventory accordingly. (Avree)

         OCIO's Response:
         OCIO's IT Security Ofice developed a Minor Application Certification process that
         includes the classificationprocess using FIP S 199 guidance. All systems/applications
         in the SBA inventory will be classified according to FIPS 199.
         To date, 60 systems have been rolled into a major application system or a general
         support system; 7 outsourced systemslapplications are in tfie C&A process; 10
         applications have been retired, and 5 outsourced systems are in the development
         phase. The target completion date is June 30, 2007.

      2. 	 Certify and accredit a11 low-, moderate-, and high-impact non-major systems in
           accordance with HSMA requirements. CAereeJ

          OClO's Response:
          (See Response to No. 1 above)

      3. 	Ensure that current contracts or sewice-level agreements are modified to
          require that disaster recovery plans for all SBA contractor-operated
          systems are annually tested and test results documented. (Agree)

          OCJO's- Response:
          OCIO will meet with the Ofice of Administration to ensure that all existing contracts
          and service level agreements are modified to include boiler plate language requiring
          annual testing of all disaster recovery plans for SBA contractor-operated systems and
          documentation of test results. In addition, OCIO's IT Security Office will develop a
          method to track compliance with this new requirement. The target completion date is
          September 30,2007.
    Redaction Marker 

   Number of
Withheld Pages                 7

  FOIA or PA
 Exemption(s)                  2
                 Appendix III - FISMA Reporting
 Description                Template
    Redaction Marker 

   Number of
Withheld Pages                 2

  FOIA or PA
 Exemption(s)                  2
                 Appendix IV – Open FISMA prior
 Description          Year Recommendations
APPENDIX V. REPORT DISTRlBUTION


                                                                                                            No. of Copies
                                                                                                               -   -.
                                                                                                                   -   ,        , -




Ofice of the Chief Financial Officer
Attention: Jeffrey Brown .......................................-...-.................................. 


General Counsel,.........................................................................................                  3


0 ffice of Management and Budget.............,..,..,............................................
                                                                                              1


U.S. Goxwnment Accountability Office ....................
                                                        .............................. 1 

